            OFFICE OF
     THE INSPECTOR GENERAL
SOCIAL SECURITY ADMINISTRATION

       SUPPLEMENTAL SECURITY
INCOME RECIPIENTS WHO DID NOT REPORT
    THEIR MARRIAGE TO THE SOCIAL
      SECURITY ADMINISTRATION

      April 2012   A-01-10-11020




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      April 16, 2012                                                                   Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Supplemental Security Income Recipients Who Did Not Report Their Marriage to the
           Social Security Administration (A-01-10-11020)


           OBJECTIVE
           Our objective was to identify and quantify improper payments related to Supplemental
           Security Income (SSI) recipients who were married to Old-Age, Survivors and Disability
           Insurance (OASDI) beneficiaries but did not report their marriages to the Social Security
           Administration (SSA).

           BACKGROUND
           SSA administers the OASDI and SSI programs. The OASDI program provides benefit
           payments to qualified retired and disabled workers and their dependents as well as to
           survivors of insured workers. 1 The SSI program provides a minimum level of income to
           financially needy individuals who are aged, blind, or disabled. 2

           The SSI program requires that SSA periodically assess individuals’ income, resources,
           and living arrangements to determine eligibility and payment amounts. SSA does this
           through redeterminations and limited issue reviews. 3 The Agency schedules
           redeterminations annually or once every 6 years, depending on the likelihood of
           payment error. The Agency also conducts redeterminations and limited issue reviews
           when SSI recipients report—or SSA discovers—certain changes in circumstances that
           could affect continuing SSI payment amounts. 4

           1
               The Social Security Act § 201, et seq., 42 U.S.C. § 401, et seq.
           2
               The Social Security Act § 1601, et seq., 42 U.S.C. § 1381, et seq.
           3
             Redeterminations are periodic reviews of the non-medical factors of SSI eligibility. Limited issue
           reviews are redeterminations that are limited in scope and do not require a full review of eligibility.
           4
            20 C.F.R. § 416.204. See also SSA, POMS, SI 02305.001 and 010 (October 4, 2007) and
           SI 02305.015 (March 13, 2009).
Page 2 - The Commissioner


The amount of a recipient’s SSI payment is based on many factors, including marital
status. For example, when both members of a couple receive SSI payments and live
together, they receive a lower payment amount as a couple rather than as two
individuals. 5 Also, when one individual receives SSI payments, the spouse’s income—
whether from earnings or OASDI benefits—is deemed available to meet the recipient’s
needs. 6 Such income may reduce or eliminate the individual’s SSI payments.
Generally, SSA relies on SSI recipients to voluntarily report any changes in their marital
status or living arrangements.

Our 2008 audit identified SSI recipients who were receiving payments inappropriately
because they did not report they were married to OASDI beneficiaries. 7 We estimated
that about 2,088 recipients were overpaid approximately $24.8 million. Based on our
recommendation, SSA agreed to review the cases from our audit population that were
most likely to result in overpayments due to unreported marriages.

To conduct our follow-up audit, we analyzed information from a file of records for SSI
recipients and OASDI beneficiaries who were receiving benefits as of March 2011.
Through this analysis, we identified 4,196 recipients who may have received SSI
payments inappropriately by not reporting their marriage to an OASDI beneficiary living
at the same address. From this population, we selected a random sample of 200 cases
for further analysis. (See Appendix B for additional information on our scope,
methodology, and sample results.)

RESULTS OF REVIEW
Based on our sample, we estimate that about 900 SSI recipients were overpaid
approximately $8.2 million because they did not report their marriages to SSA. By
stopping these improper payments, the Agency could save an estimated $3.4 million
over the next 12 months.

During our follow-up audit, we found that the number of SSI recipients who were
receiving payments inappropriately by not reporting their marriages to OASDI
beneficiaries had significantly decreased as compared to the number of recipients
identified during our 2008 audit. Table 1 compares our current and prior audits.




5
 As of January 2011, the Federal benefit rate was $674 for an individual and $1,011 for a couple. SSA,
POMS, SI 02001.020 C8 (October 31, 2011).
6
    SSA, POMS, SI 01320.650 (February 17, 1998).
7
  SSA, Office of the Inspector General, Supplemental Security Income Recipient Marriages Not Reported
to the Social Security Administration (A-01-07-27109), May 2008.
Page 3 - The Commissioner


                     Table 1: Comparison of Current and Prior Audits
                                                  Current
                                                                    Prior Audit      Difference
                                                   Audit
    Payment Receipt Date of Population When
                                                March 2011          June 2006         5 years
    Identified
    Size of Population                              4,196              9,945           (58)%
    Projected Number of Recipients
    Improperly Paid Because of Unreported            881               2,088           (58)%
    Marriages
    Projected Amount of Overpayments             $8.2 million      $24.8 million       (67)%
    Projected Savings for 12 Months After
    SSA Stopped Incorrect Payments               $3.4 million       $7.1 million       (52)%
    Resulting from Unreported Marriages

For our current audit, we are 90-percent confident the number of SSI recipients
improperly paid is between 691 and 1,098 individuals, and the amount individuals
improperly paid is between $5.5 and $10.9 million. For our June 2006 audit, we were
90-percent confident the number of SSI recipients improperly paid was between 1,632
and 2,610 individuals, and the amounts individuals improperly paid ranged from $14.5
to $35.0 million.

SAMPLE RESULTS

Our current review of 200 sample                    Chart 1: Sample Results
cases found:
•     42 recipients inappropriately                             Paid Appropriately
                                                                 133 Cases (66%)
      received $390,348 in SSI
      payments because they did not
      report their marriage to an
      OASDI beneficiary. 8 The
      Agency will save an additional
      $162,391 over the next
      12 months by adjusting the             Overpaid
      payments for these                      Other         Paid Inappropriately     Pending
      42 recipients.                         Reasons        (Due to Unreported       13 Cases
                                             12 Cases            Marriages)            (7%)
                                               (6%)           42 Cases (21%)




8
  As of March 2012, 3 of the 42 cases did not have an overpayment assessed, but the Agency suspended
benefits in 2 cases and reduced the monthly payment in 1 case by 70 percent. The remaining
39 recipients were overpaid $10,009, on average—ranging from $476 to $37,989, with a median of
$6,500. These overpayments covered a period of 33 months, on average—ranging from 7 to 82 months
(nearly 7 years), with a median of 27 months.
Page 4 - The Commissioner


•   12 recipients were overpaid $47,847 for other reasons.
•   133 recipients were not overpaid.
•   13 recipients’ payments were still under review as of March 2012.

RECIPIENTS PAID INAPPROPRIATELY BECAUSE OF UNREPORTED MARRIAGES

The 42 recipients whose marriages were not reported to SSA received $390,348 in
improper payments. 9 For example, a South Carolina couple began receiving SSI
payments in December 2004. In December 2005, the wife reported that she and her
husband were no longer living together—even though they still were. In August 2011,
she admitted to SSA that she lied about the separation because she was concerned her
husband’s income/resources would stop her SSI payments. As a result, SSA assessed
a $15,115 overpayment on her record and referred the case to our Office of
Investigations for possible fraud.

In another example, an Illinois resident began receiving SSI payments in 2004. At that
time, he was separated from his wife. Since 2004, he has suffered several major
strokes. In 2008, his wife moved back into his household. However, he did not report
this change to SSA, and as a result, the Agency overpaid him $6,500.

ADDITIONAL OVERPAYMENTS FOR OTHER REASONS DETECTED

As a result of our audit, the Agency assessed overpayments in 12 cases that may have
otherwise been undetected. For most of these cases, the overpayments occurred
because of changes in living arrangements and excess income For example, in
October 2007, an SSI recipient moved to a nursing home, which entitled him to less SSI
than his previous living arrangement. Because of our audit, SSA became aware of this
change and assessed a $16,100 overpayment.

In 3 of the 12 cases, SSA did not update the SSI recipients’ records although the
individuals previously reported their marriages to the Agency. For example, an SSI
recipient was receiving payments when the individual married in May 2006. The
recipient reported the marriage to SSA; however, the individual’s record was never
updated to reflect this situation. Because of our audit, SSA was made aware of the
oversight and assessed an overpayment of $7,593.

CONCLUSION AND RECOMMENDATION
Although we estimate that SSA overpaid recipients approximately $8.2 million in SSI
payments because the recipients did not report their marriages, this is significantly less
than what we found in our prior audit.



9
 As of March 2012, SSA had referred seven cases to our Office of Investigations for possible fraud, of
which six are still under investigation and one was accepted for state prosecution.
Page 5 - The Commissioner


We recommend the Agency review the remaining 3,016 cases from our audit population
that will most likely result in overpayments because of unreported marriages.

AGENCY COMMENTS
SSA disagreed with our recommendation. The Agency stated that it would be willing to
work with us to reduce the number of cases in the audit population that are likely to
result in an overpayment, but SSA does not have the resources to review the more than
3,000 cases we identified in our review. SSA further stated that diverting resources to
complete these reviews would jeopardize its ability to process claims, provide adequate
service to the public, and perform other critical program integrity workloads. (See
Appendix C for the Agency’s comments.)

OIG RESPONSE
Our report demonstrates the need for SSA to work the remaining cases. Specifically,
our review identified that an estimated $8.2 million in overpayments exist because SSI
recipients did not report to SSA that they were married. Additionally we estimated that
by stopping these improper payments, the Agency could save an estimated $3.4 million
over the next 12 months.

We initially identified 4,196 cases. However, through additional analysis in March 2012,
we reduced this to 3,016 cases that are most likely to be overpaid and provided the file
to SSA on March 22, 2012. We estimate that it would cost SSA about $511,000 to
review the remaining cases, which is substantially less than the overpayments they
would record and future inappropriate payments they would stop by conducting these
reviews. 10 Furthermore, SSA should continue reviewing the possibility of unreported
marriages while conducting scheduled SSI redeterminations.




                                               Patrick P. O’Carroll, Jr.




10
  SSA’s Cost Analysis System C2-15 DET report (http://eis.ba.ssa.gov/ofpo/dca/c2-15det.html) for
Fiscal Year 2011 shows the cost per SSI redetermination was $169.45. Therefore, we calculated our
estimated cost by multiplying the number of cases SSA would need to review by the cost per
redetermination—3,016 cases multiplied by $169.45 to review each case equals a total cost of $511,061.
                                   Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope, Methodology, and Sample Results
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
MBR      Master Beneficiary Record
MSSICS   Modernized Supplemental Security Income Claims System
OASDI    Old-Age, Survivors and Disability Insurance
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSR      Supplemental Security Record
U.S.C.   United States Code
                                                                                      Appendix B

Scope, Methodology, and Sample Results
To accomplish our audit, we:

   Reviewed applicable sections of the Social Security Act and Social Security
    Administration (SSA) regulations, rules, policies, and procedures.
   Reviewed our May 2008 report, Supplemental Security Income Recipient Marriages
    Not Reported to the Social Security Administration (A-01-07-27109), and determined
    the Agency implemented our prior recommendation. 1
   Took the following steps, which are the same steps we took in our May 2008 audit.
     Obtained from SSA a file of all Supplemental Security Records (SSR) and Master
      Beneficiary Records (MBR) for individuals in current payment status. We
      matched these MBRs and SSRs based on ZIP code, last name, and first
      8 characters of the address and identified a preliminary population of
      410,455 cases. We then narrowed the population by removing
           SSRs that were couples’ records;
           individuals born more than 20 years apart;
           address matches with different P.O. Box numbers;
           records that had accounted for an Old-Age, Survivors and Disability
            Insurance (OASDI) beneficiary’s payment;
           matches with individuals who had the same parents (indicating they were
            siblings); and
           records that were identified in our prior audit.
       Through this analysis, we identified a population of 4,196 Supplemental Security
       Income (SSI) recipients who (1) were receiving payments as of March 2011 and
       (2) may have been married to an OASDI beneficiary at the same address but did
       not report that information to SSA.
     Selected a random sample of 200 cases from the population. For these cases,
      we reviewed the MBRs and SSRs in more detail. We also reviewed SSA’s
      Modernized Supplemental Security Income Claims System (MSSICS). We sent
      cases for which we needed assistance to SSA for review and appropriate action.
      We then did the following for each case where appropriate.
           Quantified the amount of SSI payments SSA determined were overpaid
            because the recipient did not report a marriage.
1
 Initially, we indentified a population of 9,945 cases, but through additional analysis, we reduced this to
7,761 cases most likely to result in overpayments due to unreported marriages. To determine whether
SSA worked these cases, we randomly selected and reviewed 100 of the 7,761 cases. For the
100 cases, we reviewed the SSRs and MSSICS.


                                                     B-1
         Quantified the amount of incorrect SSI payments the Agency would have
          continued to pay over a 12-month period because the recipient did not
          report his/her marriage. To calculate this amount, we multiplied the amount
          of the last monthly overpayment amount by 12.
   Projected results of the sample to the population.

We conducted our audit between April 2011 and March 2012 in Boston, Massachusetts.
The entities audited were SSA's field offices under the Office of the Deputy
Commissioner for Operations. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
tested the data obtained for our audit and determined them to be sufficiently reliable to
meet our objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.

SAMPLE RESULTS AND PROJECTIONS

                        Table B-1: Population and Sample Size
           Population size                                  4,196
           Sample size                                        200

           Table B-2: SSI Recipients Improperly Paid Because They Did
                              Not Report Marriages
                                            Attribute                  Dollar
                                           Projection                Projection
           Sample cases                             42                   $390,348
           Point estimate                         881                 $8,189,509
           Projection lower limit                 691                 $5,481,845
           Projection upper limit               1,098                $10,897,174
              Note: All projections were calculated at the 90-percent confidence level.

           Table B-3: Potential Savings for 12 Months If Marriages Were
                                 Reported to SSA
                                            Attribute                  Dollar
                                           Projection                Projection
           Sample cases                             42                   $162,391
           Point estimate                         881                 $3,406,962
           Projection lower limit                 691                 $2,446,111
           Projection upper limit               1,098                 $4,367,813
              Note: All projections were calculated at the 90-percent confidence level.



                                                B-2
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      March 26, 2012                                                          Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Follow-up: Supplemental Security Income
           Recipients Who Did Not Report Their Marriage to the Social Security Administration”
           (A-01-10-11020)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Teresa Rojas at (410) 966-6784.

           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “FOLLOW-UP: SUPPLEMENTAL SECURITY INCOME RECIPIENTS
WHO DID NOT REPORT THEIR MARRIAGE TO THE SOCIAL SECURITY
ADMINISTRATION” (A-01-10-11020)


Recommendation 1

Review the remaining cases from our audit population that will most likely result in
overpayments because of unreported marriages.

Response

We disagree. While we will continue to work with OIG as they conduct further analysis to
reduce the number of cases in the audit population that are likely to result in an overpayment, we
do not have the resources to review over 3,200 cases OIG identified in its review. Deviating
resources to complete these reviews would jeopardize our ability to process claims, provide
adequate service to the public, and perform other critical program integrity workloads.




                                               C-2
                                                                         Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   David Mazzola, Audit Manager

Acknowledgments

In addition to those named above:

   Chad Burns, Senior Auditor

   Kevin Joyce, IT Specialist

   Toni Paquette, Program Analyst

   Alla Resman, IT Specialist

   Charles Zaepfel, IT Specialist

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-01-10-11020.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
